                    Office of Inspector General
                   Corporation for National and
                            Community Service




    Semiannual Report
      to Congress
April 1, 2007 - September 30, 2007
      Fiscal Year 2007 Semiannual Report No. 2




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                                                                                    Table Of Contents


A Message From Inspector General Gerald Walpin.............................................. 1

Audit Section............................................................................................................ 3
      Audit Results ................................................................................................................................ 5
      Significant Audit........................................................................................................................... 5
      Common Audit Findings ............................................................................................................. 6
      Proposed Management Decisions With Which The OIG Disagreed ....................................... 7

Investigations Section............................................................................................. 9
      Investigative Results ................................................................................................................. 11
      Significant Cases And Activity ................................................................................................. 11

Review Of Legislation And Regulations .............................................................. 15
      Criminal Background Checks................................................................................................... 17
      Proposed Reauthorization Bill For The Corporation.............................................................. 17
      Rulemaking................................................................................................................................. 18

Statistical And Summary Tables .......................................................................... 19
      I.      Inspector General Act Reporting Requirements........................................................... 21
      II.     Audit List ........................................................................................................................... 22
      III.    Reports With Questioned Costs ..................................................................................... 23
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 24
      V.      Summary of Audits With Overdue Management Decisions......................................... 25
      VI.     Reports Described In Prior Semiannual Reports Without Final Action...................... 26
      VII     Proposed Management Decisions Under OIG Review ................................................. 27

Fiscal Year 2007 Performance Information ......................................................... 29


                               About The Office of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn and Serve
America, and Senior Corps. The OIG also examines Corporation operations, and State community
service programs that receive and distribute the majority of Corporation grant funds. Based on the
results of our work, and in addition to its audit reports and criminal and civil referrals based on our
investigations, the OIG recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the
final six months of Fiscal Year 2007. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.
                                                Inspector General’s Message


          A Message From Inspector General
                             Gerald Walpin
October 31, 2007

I am pleased to present this Semiannual Report to Congress by the
Office of Inspector General (OIG), Corporation for National and
Community Service (Corporation), and share with you the results of
our investigations, audits, and other efforts for the period April 1
through September 30, 2007.

As Inspector General, my goal is to enhance the fine work of the
Corporation, its grantees, and the volunteers who serve their
communities, by assuring that every taxpayer dollar invested in the
Corporation’s service programs is properly and efficiently used.

This reporting period featured some notable successes toward that goal. Cases closed by our
Investigations Section resulted in the recovery of more than $790,000 of taxpayer funds and set the
stage for the potential recovery of more than $2.3 million from persons and programs that engaged in
fraud, waste and abuse of Corporation resources.

Our Audit Section issued eight reports that questioned grantee-claimed costs of more than $5.4
million and identified more than $792,000 of additional funds that could be put to better use.

And, as the result of our investigative and audit efforts, the OIG identified potential pitfalls and
vulnerabilities and offered Corporation management recommendations designed to improve its
operations and oversight of grantees and volunteer programs.

In several cases, our investigations were able to forestall False Claims and fraud schemes before any
damage was done. And, thanks to timely communication of our findings to Corporation officials,
funding was cut off or suspended to the most egregious abusers of the public’s trust and purse.

I believe our audits of programs and of grantees provide real value to the Corporation by identifying
misspent or misallocated funds and helping to recover money to the U.S. Treasury.

A prime example during this reporting period was our audit of an AmeriCorps grant made to United
States Veterans Initiative Inc. (USVI), a nonprofit based in Southern California that serves homeless
veterans. This major effort, based on information initially provided by the Investigations Section,
found widespread abuses and violations and resulted in questioned Federal grant costs of $502,000
and $249,226 in education awards made to USVI’s AmeriCorps members.

Our audit also raised important issues related to USVI’s joint venture agreements with its for-profit
partner, Cantwell Anderson Inc. (CAI), a real estate development firm headed by USVI’s founder and
former executive director. The auditors found that many transactions between USVI and CAI were
less than arms length and that a significant amount of program income could not be accounted for.
Upon being informed of our findings, Corporation officials suspended additional funding for USVI.

In its response to our audit, USVI defended its performance as a grantee by stressing the fact that it
assists needy veterans. I responded to that premise by stating “there can be no better use of Federal
funds than for helping our veterans in need. But that good purpose is no excuse for misusing funds
and thereby depriving veterans of money allocated to benefit them.” As our audit and investigation
continues, we are mindful of our objective to root out any fraud and misuse of Federal funds while, at
the same time, enhance the continued flow of services to those in need, including veterans.


April 1, 2007 – September 30, 2007                                                              1
Inspector General’s Message

 Upon taking office in January of this year, I pledged to vigorously seek sanctions against all
 wrongdoers. When people steal from worthy causes like the Corporation’s volunteer programs, my
 staff and I take it personally.

 Our efforts have included an outreach effort to convince Federal, state and local prosecutors that, in
 the OIG’s view, there is no such thing as “minor fraud” or a “low-dollar amount” case. We have also
 improved the presentation and documentation of our cases for United States Attorneys and other
 prosecutorial decision makers.

 We have made it widely known that a fraud is a fraud and the theft of as little as $16,000 can mean
 one less AmeriCorps or VISTA member who is supported by Corporation funds to serve a community
 in need. Thefts of as little as $500 can result in funds being unavailable to support a Senior Corps
 Foster Grandparent or to assist a local public school or college in establishing a Learn and Serve
 program that enlists its students in community service.

 Our outreach program and persistence in pursuing sanctions bore fruit during this reporting period.
 Our investigation of extensive abuses in an AmeriCorps program operated by the YMCA of Greater
 New York made a strong case, convincing YMCA officials to agree to repay the Government
 $534,000 under a civil settlement negotiated by the U.S. Attorney’s Office on the basis of the well-
 documented referral file we provided. Also, as a result of our efforts, the New York State Commission
 cut off all funding to the YMCA, including funding from the AmeriCorps program.

 During this reporting period, the OIG has also taken a more proactive stance in the audit resolution
 process by advocating for maximum recovery of questioned and unallowable costs and, where
 applicable, offering recommendations for policy changes that will clear up identified inconsistencies in
 grant provisions and enforcement.

 We have also weighed in with Congress on concerns related to the Corporation’s pending
 reauthorization legislation, citing provisions which could adversely affect the Corporation’s operations
 or could prove conducive to fraud, waste and abuse.

 Finally, during this reporting period, my staff and I have met, addressed, and interacted extensively
 with Corporation officials, grantees and program participants in a series of conferences, fraud
 awareness briefings, and audit training meetings. These sessions have further strengthened my
 resolve to protect national service resources and root out wrongdoers.

 Overall, the OIG has made strides during this reporting period while increasing its effectiveness as a
 deterrent against those who would betray the public’s trust. We will continue to build on those
 successes in the year ahead.

 Having said that, I would be less than candid if I didn’t caution that our ability to continue to perform
 the important role that Congress has delegated to us depends on receiving funding in an amount at
 least equal to the funds we were able to use to finance our performance in 2006, when $6.9 million
 was made available to this office.

 The current Senate Committee proposed appropriation provides that funding. Unfortunately, the
 current House bill would reduce available funds for this office to $5.512 million, or a 20 percent
 reduction from the 2006 level, apparently due to seeking comparability to 2006 and 2007
 appropriations without considering that two-year additional funds were available for use in both years.

 Without available funds in 2008 comparable to the funds available in 2006 and 2007, this office will be
 unable to perform much of the audit and investigative work which produced the successful
 performance shown by this office.




 2                                                           April 1, 2007 – September 30, 2007
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




April 1, 2007 – September 30, 2007                                      3
                                                                                 Audit Section


Audit Results
 During this reporting period, the OIG Audit Section issued eight reports that questioned more than
 $5.4 million in grantee claimed costs and recommended that more than $792,000 in additional funds
 that could be put to better use. There were 18 audits in process at the end of this period. The Audit
 Section, which began this period with an Assistant Inspector General for Audit and five auditors,
 added three more auditors to its staff to fill vacancies in positions needed for this office’s operations.
 Reports issued this period included:

     •   Agreed-Upon Procedures Review of Grants Awarded to Mississippi Commission for
         Volunteer Service
     •   Agreed-Upon Procedures Review of Grants Awarded to Kansas Volunteer Commission
     •   Agreed-Upon Procedures Review of the Seven Corners, Inc. Health Benefits Administration
         Claims Processing Contract
     •   Agreed-Upon Procedures Review of Senior Corps Grants Awarded to Council on Aging of
         Volusia County, FL
     •   Agreed-Upon Procedures Review of Grants Awarded to OneStar National Service
         Commission
     •   Follow-Up Review of the Corporation for National and Community Service Purchase and
         Travel Card Programs
     •   Agreed-Upon Procedures Review of Grants Awarded to Arkansas Service Commission
     •   Audit of Grant Awarded to United States Veterans Initiative, Inc.

 The focus of reports issued this period continued to be audits of the Corporation’s State commission
 partners and its National Direct Grantees. The Corporation awards AmeriCorps grants to State
 commissions that issue subgrants to local organizations to support their AmeriCorps programs.
 National Direct Grantees either subgrant funds to organizations to run programs or operate
 AmeriCorps programs in more than one state. AmeriCorps members serve nonprofits, public
 agencies and faith-based and other community organizations to help them meet critical needs. Upon
 completion of their term of service, members receive an education award to help finance their higher
 education or pay existing student loans.

 At the Corporation’s request, we performed agreed-upon procedures on the AmeriCorps VISTA
 health claims processing contractor and of grants awarded to the Council on Aging of Volusia County,
 FL. We also tested the Corporation’s Purchase and Travel Card controls to ensure that accounts
 were terminated as soon as cardholders ended their employment.

 As part of the OIG’s effort to demystify the audit process, Audit Section staff gave training
 presentations at two Corporation conferences for grantee employees. We briefed attendees on the
 OIG audit process, as well as common audit findings and how to avoid such problems.


Significant Audit
 Audit of Grant Awarded to United States Veterans Initiative, Inc. (USVI)

 OIG Audit Report 07-21 questioned a total of $502,774 Federal Share and $249,226 of education
 awards, amounting to more than 9 percent of the value of USVI’s grant. In addition to the questioned
 costs, the audit identified additional costs that may be questioned based on less than arm’s length
 transactions with the for-profit real estate development firm Cantwell Anderson Inc. and its
 subsidiaries, USVI’s for-profit partner in a number of joint ventures. As the findings in this audit,
 which was limited to one grant covering a 3-year period, may well apply to the many grants over more
 than 13 years, this office continues its review of USVI. Also, more costs may be questioned when
 USVI negotiates its final indirect rates with the Department of Veterans Affairs, its oversight agency.



 April 1, 2007 – September 30, 2007                                                                  5
Audit Section

 USVI had never submitted any final rate information, as required in its provisional negotiated indirect
 rate agreement and Office of Management and Budget Circular A-122.

 Our audit of USVI, in addition to the related party findings, included all of the common audit findings
 listed below, as well as the following significant problems:

     •   Commingling of grant costs in one fund code;
     •   Performance measures not clearly tracked and evaluated;
     •   Retroactively dated transactions submitted as support for claimed costs;
     •   Internal control weaknesses, including no documentation of subgrantee monitoring visits;
     •   Criminal record checks not performed for members serving vulnerable persons;
     •   Members who served more than two terms and received living allowances as well as
         Education Award Only members who received living allowances;
     •   Living allowances claimed for members for whom no records existed;
     •   Members who provided no service to veterans, who performed administrative duties for USVI
         or who provided services to Cantwell Anderson Inc.; and
     •   Employees of USVI or a USVI placement site enrolled as members and receiving service
         credit for work hours.

 The report included ten findings and 22 recommendations to improve the grantee’s internal controls
 and its compliance with grant provisions. In July 1998, we had issued a report on USVI. Results
 from that audit were similar to some of those found in the recent audit, indicating that OIG
 recommendations were not implemented.


Common Audit Findings

 Audit findings during this period included:

     •   Financial Status Reports that did not reconcile to accounting records;
     •   AmeriCorps member eligibility that was not documented;
     •   Grantee-reported AmeriCorps service hours did not meet the minimum requirements for
         earning an education award;
     •   Undocumented match or match that improperly utilized funds from other Federal grants; and
     •   Not reporting program income as required.

 The questioned costs identified by our audits resulted, for the most part, from lack of grantee
 compliance with regulations and grant provisions.

 Financial Status Reports

 Financial Status Reports (FSRs) are the required tool for grantees to report program outlays, income
 and match costs. The information contained in these reports is also used by the Corporation to
 monitor its grantees and their programs. During this period, our audits continued to find numerous
 instances in which financial data reported to the Corporation in FSRs did not reconcile to the
 grantee’s accounting records.

 AmeriCorps Member Eligibility Not Documented

 To serve as an AmeriCorps member, an individual must be a U.S. citizen, U.S. national or lawful
 permanent resident alien of the United States, be at least 17 years of age at the commencement of
 service and have a high school diploma or an equivalency certificate. Our audits found that some
 grantees did not have eligibility documentation for all of their members available during the audit,
 leading us to question grant costs and education awards for those members.



 6                                                          April 1, 2007 – September 30, 2007
                                                                              Audit Section

 AmeriCorps Education Award Eligibility

 AmeriCorps members must serve a minimum number of service hours to earn full or partial education
 awards at the end of their terms of service. Members are required to document their service hours on
 timesheets, which are signed by their program supervisor. The grantee is required to certify, at the
 completion of service, the number of hours each member served and enter this data into the
 Corporation’s Web-Based Reporting System. This certification documents the member’s’ eligibility for
 an education award. Our audits found certifications that were not supported by service-hour data on
 member timesheets, leading us to question the awards. In cases where the discrepancy in service
 hours appeared to be intentional, we informed the OIG Investigations Section.

 Undocumented Match Or Match Provided Using Funds From Other Federal Grants

 The Corporation’s grants include requirements for the grantee to fund a part of the program with
 matching funds. The amount varies between AmeriCorps and Senior Corps grants. Matching funds
 must be non-Federal cash for member support costs and may be cash or in-kind for the remaining
 required match. Our audits continued to report grantees whose match is not supported by
 documentation. While OMB Circulars require that match costs be held to the same documentation
 requirements as the Federal share, it appears that some grantees do not understand this basic
 requirement. Also, match cannot include funds paid by the Federal Government under another
 award, except where authorized by Federal statute.

 Program Income Not Used As Required

 Some of our audits found that the grantees received income as a result of their members’ service.
 This income was not used as required by the grant provisions, which specifically state that “Income
 earned as a direct result of the Program’s activities during the award period may be retained by the
 Grantee and used to finance the non-Corporation share of the Program”.


Proposed Management Decisions With Which The OIG Disagreed

 The OIG did not entirely concur with the proposed management decisions (PMDs), for Audit Report
 06-23, Audit of Grants Awarded to the Massachusetts Service Alliance, 06-26, Audit of Grants
 Awarded to the New Mexico Commission for Community Volunteerism, 06-36, Audit of Grants
 Awarded to Serve Idaho, Governor's Commission on Service and Volunteerism, and 07-07, Audit of
 Grants Awarded to Volunteer Florida.

 A significant disagreement stems from the Corporation’s interpretation of Section 139 of the National
 and Community Service Trust Act of 1993, which allows a participant to be released from completing
 a term of service, with a partial education award, for compelling personal circumstances “as
 demonstrated by the participant.” The Code of Federal Regulations, 45 CFR § 2522.230, gives
 examples of compelling personal circumstances as those beyond the participant’s control, including
 participant’s disability or serious illness or that of a family member which impacts the participant’s
 ability to continue in the program. The regulations also note that conditions attributable to the
 program or otherwise unforeseeable and beyond the member’s control, such as a natural disaster,
 strike, relocation of a spouse or the nonrenewal or premature closing of a project or program, are
 considered compelling personal circumstances.

 Our audits questioned the education awards for members who did not serve the number of hours
 required to earn an education award and did not demonstrate a compelling personal circumstance but
 were given a partial award. We found instances in which grantees enhanced the number of hours
 served through such means as awarding bonus hours not authorized in the act or regulations, double
 counting hours, and miscounting hours, resulting in members receiving partial education awards. In
 such cases in which the members did not serve the required number of hours, the Corporation



 April 1, 2007 – September 30, 2007                                                              7
Audit Section

 approved the awards despite the absence of any showing by the participant of compelling personal
 circumstance, as required by the controlling regulation.

 In its final management decisions, the Corporation held to its proposed management decisions to
 allow the partial education awards on the ground that grantee or subgrantee errors should not result
 in penalties for AmeriCorps members, thereby ignoring the express requirement that such awards
 may not be given if the required hours had not been served unless the member demonstrated
 compelling personal circumstances. The Corporation thereby imposes the cost of the education
 awards on the U.S. Government, thus absolving both the grantee and the member of liability for the
 cost of education awards that had not been earned.

 The OIG does not want any member to be harmed as the result of grantee error. However, the law is
 clear on the requirements to earn an education award and the necessity for the member to
 demonstrate compelling personal circumstances. We have recommended that the Corporation hold
 its grantees responsible for making the members whole by using non-Federal funds for the education
 awards. In our view, grantees are responsible for operating their programs according to laws,
 regulations and grant provisions. Allowing the partial education awards to be paid with taxpayer
 funds when the grantee has erred does not make the grantee accountable for its actions.




 8                                                        April 1, 2007 – September 30, 2007
                                     Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activity involving
                   the Corporation’s employees, contractors, and grant
                   recipients. Criminal investigations are presented to the
                   U.S. Attorney or, in some cases, the local prosecutor for
                   criminal prosecution and monetary recovery, where the
                   facts uncovered so warrant. Some investigative reports
                   are referred to Corporation management for its
                   administrative action.




April 1, 2007 – September 30, 2007                                       9
                                                               Investigations Section


Investigative Results
 The OIG Investigations Section opened 25 new cases and closed 25 cases, including 13 matters with
 significant findings. Our investigative efforts resulted in the recovery of more than $790,000 in
 taxpayer funds and the potential recovery of $2.3 million from persons and programs found to have
 engaged in fraud, waste or abuse of Corporation resources.

 Our investigations also resulted in the successful criminal prosecution of six persons and 19 referrals
 that are pending adjudication. Based on information developed through our investigations and
 successful prosecutions, Corporation management debarred 15 persons from participating in Federal
 procurement and non-procurement programs for periods ranging from one to three years.

 In an effort to prevent future instances of fraud, waste and abuse, the OIG Investigations Section
 made several recommendations to Corporation management that are designed to improve program
 operations and oversight.

 Proactive prevention is also the goal of our Fraud Awareness Program. OIG investigators regularly
 make multimedia training presentations to Corporation employees, program officials, and members.
 In addition, investigators conduct unannounced visits to program sites during their official travel.
 These visits assist Corporation management in determining if grantees are adhering to goals and
 objectives and give grantees the opportunity to give feedback on how effectively Corporation
 management is supporting their programs.

 Consisting of an Assistant Inspector General for Investigations, five agents with full Federal Law
 Enforcement Authority and an investigative assistant, the Investigations Section met the challenge of
 pursuing wrongdoers in Corporation operations that include hundreds of grantees and sub-grantees
 in all 50 states and U.S. territories. We were assisted in our work by 70 calls and e-mails to our
 Fraud Hotline and by referrals from Corporation managers, employees, and program participants.


Significant Cases And Activity
 Fraudulent Service Hours

 A number of cases during this reporting period involved program officials who inflated service hours
 for their AmeriCorps and VISTA members and reported this fraudulent data to the Corporation,
 thereby falsely certifying their members for education awards and living allowances. Members who
 successfully complete 1,700 hours of community service during their one-year terms can receive
 education awards of $4,725 from the Corporation’s taxpayer funded National Service Trust. Timely
 intervention by the OIG resulted in sizeable recoveries of taxpayer funds and, in several cases,
 prevented losses due to program fraud and false claims.

 In a major case, the OIG Investigations Section, working in conjunction with the OIG Audit Section,
 found that officials of the YMCA of Greater New York had falsified time sheets and inflated member
 service hours, thereby fraudulently certifying education awards for 76 of its AmeriCorps members.
 The initial findings were shared with New York State Commission officials, who cut off funding to the
 program. While admitting no wrongdoing, YMCA officials agreed to repay the Government $534,000
 in a settlement negotiated by the U.S. Attorney for the Southern District of New York on the basis of
 our referring file.

 In another ongoing case, the result of a call to the OIG Hotline, we investigated allegations that a
 program executive director had enrolled his employees in his agency’s AmeriCorps program and had
 falsely certified to the Corporation that his employees were performing community service. Under
 AmeriCorps regulations, members are not allowed to perform the duties of program employees or
 supplant persons in paid positions. In addition, we found evidence that the program director had


 April 1, 2007 – September 30, 2007                                                              11
Investigations Section

 inflated the service hours of AmeriCorps members who were properly enrolled in the program,
 thereby making them eligible for education awards to which they were not entitled. The overall loss to
 the Government is estimated at more than $300,000.

 In another case, an OIG audit and investigation disclosed that senior program officials failed to
 adequately manage their AmeriCorps program, thereby denying AmeriCorps members the
 opportunity to complete the required 1,700 hours of service during their one-year terms and earn an
 education award. Program officials then devised a scheme to ensure their members received enough
 service credit by inflating their hours and reporting this data to the Corporation. The OIG was able to
 uncover this scheme before any of the fraudulent education awards were certified by the grantee. If it
 had gone undetected, this scheme could have resulted in a $45,750 loss to the Government.

 Another Hotline call led to the OIG investigation of an allegation that 25 individuals attending a
 summer college program were asked to enroll in a part-time AmeriCorps program. A grantee
 receives $400, to cover its administrative costs, for each AmeriCorps member it enrolls in the
 education award only-program (members receive no living allowances). Our investigation found that
 members had been used for activities outside the scope of the program’s grant, thereby disqualifying
 them for education awards. The OIG investigation forestalled approval of the education awards,
 thereby preventing a loss to the Government of $45,000. It also prevented the Corporation’s payment
 of $10,000 in fraudulent administrative costs to the grantee.

 Finally, we investigated a State commission report that AmeriCorps members had falsified the service
 hours claimed on their time sheets and that their program officials had forged signatures on
 partnership agreements with the sites where the members allegedly served. Investigation found
 evidence that program officials and AmeriCorps members had submitted fraudulent partnership
 agreements, claiming benefits for service that was never performed. This allowed members to earn
 living allowances and education awards to which they were not entitled, resulting in a $53,431 loss to
 the Government. It has been referred to the U.S. Attorney for appropriate judicial remedy.

 Fraudulent Child Care Payments

 Starting with a single case and expanding the investigation with the use of Federal and State records,
 an OIG Senior Special Agent disclosed evidence that 11 former AmeriCorps and AmeriCorps*VISTA
 members from Michigan had fraudulently received more than $100,000 in child care subsidies from
 VISTA Care and AmeriCorps Care, child care benefit programs for VISTA and AmeriCorps members
 that are administered for the Corporation by the National Association of Child Care Resources and
 Referral Agencies (NACCRRA).

 Our investigation disclosed evidence that the former members received subsidies through the
 Corporation’s programs while also receiving State child care benefits, which are mainly funded by
 Federal Block grants. The Corporation programs bar beneficiaries from concurrently receiving
 benefits from more than one source.

 One case was prosecuted by the local U.S. Attorney’s Office resulting in the recovery of fraudulently
 obtained benefits. Other individuals were successfully prosecuted for Welfare Fraud by State officials,
 and other cases are being handled administratively by Corporation management. Several of those
 individuals have begun making restitution and, based on information developed by the OIG, have
 been debarred by Corporation management.

 Our investigation revealed a lack of adequate checks and balances among Corporation and State
 and locally administered child care programs that could prevent persons from fraudulently obtaining
 dual benefits. This condition appears to be conducive to fraud and abuse. The OIG has launched a
 review of the benefit program. The results will be presented to Corporation management along with
 recommendations for corrective action.




 12                                                         April 1, 2007 – September 30, 2007
                                                               Investigations Section

Misuse of Program Participants

A significant number of OIG cases involved the misuse of AmeriCorps members and other program
participants, including the use of members to displace paid program employees, thereby
supplementing staff salaries with program funds. Other cases involved the fraudulent enrollment of
program employees as AmeriCorps members, who were falsely certified by program officials for living
allowances and education awards to which they were not entitled. These violations resulted in a loss
of more than $258,000 in Corporation funds.

The OIG received a Hotline allegation that a VISTA program executive director had enrolled her
employees in the VISTA program to supplement the employees’ salaries and benefits. The
investigation found that the executive director of Habitat for Humanity Peninsula, Newport News, VA,
fraudulently enrolled her employees in the VISTA program to supplement their salaries with VISTA
funds. The grantee agreed to make restitution as part of a civil settlement negotiated by the U.S.
Attorney’s Office, Eastern District of Virginia, Norfolk, VA. Corporation management debarred the
executive director and the members based on the OIG’s recommendation.

An allegation was reported to the OIG Hotline that another VISTA project director also enrolled her
employees in the VISTA program to supplement the employees’ salaries and benefits. The
investigation found evidence that the project director conspired with her husband to fraudulently enroll
their private business employees in the VISTA program to supplement their salaries and benefits with
Federal program funds. The two individuals have agreed to a civil settlement, which is being
completed by the U.S. Department of Justice.

Corporation management reported to the OIG that a VISTA member alleged that she was required to
reimburse part of her living allowance to her site supervisor. Investigation disclosed evidence that the
executive director and former site supervisor fraudulently documented two members’ service when, in
fact, the members were employed by the program. The two employees also received VISTA living
allowances to which they were not entitled. The U.S. Department of Justice is pursuing civil recovery.

A State commission reported that an AmeriCorps site supervisor was withholding members’ living
allowances. The investigation found evidence that the site supervisor had enrolled her day care
center employees in the AmeriCorps program to supplement their salaries with program funds. The
U.S. Department of Justice is pursuing criminal prosecution.

                                     Summary Of Cases
           Opened and Closed
             Cases Open at Beginning of Reporting Period                               42
             New Cases Opened                                                          25
             Cases Closed this Period with Significant Findings                        13
             Cases Closed this Period with No Significant Findings                     12
             Total Cases Closed                                                        25
             Cases Open at End of Reporting Period                                     42
           Referred*
             Cases   Referred for Prosecution                                          6
             Cases   Accepted for Prosecution                                          2
             Cases   Declined for Prosecution                                          2
             Cases   Pending Prosecutorial Review                                      2
             Cases   Pending Adjudication                                              19
           Recommendations to Management
             Investigative Recommendations Referred to Management                      23
             Investigative Recommendations Pending this Reporting Period               8
             Investigative Recommendations Pending from Previous Periods               0
           *This includes referrals for prosecution during the previous period



April 1, 2007 – September 30, 2007                                                               13
                             Review Of Legislation And
                                          Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The OIG reviews legislation
                   and regulations to determine their impact on the
                   economy and efficiency of the Corporation’s
                   administration of its programs and operations. It also
                   reviews and makes recommendations on the impact
                   that legislation and regulations may have on efforts to
                   prevent and detect fraud, waste and abuse in
                   Corporation programs and operations. The OIG draws
                   on its experience in audits and investigations as the
                   basis for its recommendations.




April 1, 2007 – September 30, 2007                                     15
                                 Review Of Legislation And Regulations


Criminal Background Checks
 Based on the results of its investigations and audits, the OIG recommended in past reporting periods
 that the Corporation strengthen and expand its criminal background check requirements for
 volunteers and program officials who have contact with children, the elderly, and other vulnerable
 persons.

 On August 24, 2007, after several iterations of a proposed draft rule, which included the OIG’s
 suggestions for improvement as well as a period for public comment, the Corporation published as
 final its National Service Criminal History Checks Rule. That rule will require that grantees in the
 AmeriCorps, Senior Companion and Foster Grandparent programs conduct a criminal history check
 on all incoming participants and grantee staff. The rule will go into effect on November 23, 2007.

 Specifically, the rule requires a grantee to search the National Sex Offender Public Registry (NSOPR)
 maintained by the U.S. Department of Justice, and to search by name or fingerprint the criminal
 registry of the State in which the program operates (and, if different, the state in which an applicant
 resides), for all applicants and grantee staff who would have recurring access to children, the
 disabled, and persons age 60 and older. Any individuals found to be on the NSOPR are to be
 deemed “unsuitable” for a Corporation-funded position. The eligibility of individuals found on a State
 criminal registry is left for the program to decide, but the regulation requires that program officials
 document that they considered the background check result prior to selection.

 Also under the rule, “children” are defined as “individuals 17 years of age or younger” and “recurring
 access” is defined as “the ability on more than one occasion to approach, observe, or communicate
 with an individual, through physical proximity or other means, including but not limited to, electronic or
 telephonic communication.”

 The rule amends parts of, and is codified in, 45 C.F.R. §§ 2510; 2522; 2540; 2551; and 2552.


Proposed Reauthorization Bill For The Corporation
 In anticipation of Congress considering a reauthorization bill for the Corporation, the Corporation
 invited the OIG to comment on how the Corporation’s current statute could be improved. The OIG
 suggested additions to certain sections of the current act, such as prohibiting an AmeriCorps member
 from receiving an education award if his/her certification was fraudulent; establishing what constitutes
 compelling personal circumstances in order to release an AmeriCorps member from a term of service
 and receive a partial education award; providing for unfettered OIG access to grantee records; and
 strengthening the language in the Domestic Volunteer Service Act to clarify that VISTA members not
 engage in outside employment during their year of service.

 In June 2006, a bill to reauthorize the Corporation was introduced in the U.S. House of
 Representatives. The OIG studied the proposed legislation and forwarded to House members and
 staff its comments concerning the current statute, as well as those aspects of the bill the OIG found
 wanting.

 Specifically, we questioned the wisdom of the section of the proposed bill that would permit the
 Corporation to forgive up to 75 percent of funds disallowed pursuant to a government audit if the
 grantee demonstrates that the practices that gave rise to their disallowance had been corrected, and
 the plan for their proper use had been submitted to the Corporation and approved. We believe such
 a mechanism undermines the deterrent effect associated with disallowed costs, diminishes the
 importance of the cost principles for grantees expressed in the OMB Circulars, and could open a
 floodgate for grantee appeals of previously disallowed costs.




 April 1, 2007 – September 30, 2007                                                                17
                                Review Of Legislation And Regulations

 We also questioned the proposed bill’s intent to strike the requirement that AmeriCorps members
 serve at least 9 months in a full time term of service of 1700 hours. We believe that requiring a
 member to serve at least 9 months of a one-year term of service provides needed availability and
 continuity for beneficiary organizations that rely on the members for their services, especially at the
 back end of the program year.

 Finally, we questioned, based on practicality and the equities involved, a new program authorized by
 the proposed bill called “summer of service,” a youth service program for children in grades 5 through
 12. We believe that there are practical problems of security and administration for the government in
 instituting a once a year program for children, and that the proposed education award of $500 for 100
 hours for a summer of service by children would diminish the efforts of traditional AmeriCorps
 program volunteers who, by comparison, receive an education award of $4,725 for 1700 hours of
 service.

 The bill awaits final action in both the House and the Senate.


Rulemaking
 In FY 2007 or FY 2008, the Corporation intends to issue for public comment proposed revisions to the
 current AmeriCorps regulations that are designed to streamline, and thereby make less burdensome,
 grant administration for AmeriCorps grantees. The OIG has reviewed an internal draft of the
 proposed rules and informed the Corporation of those aspects which, in our view, would weaken an
 OIG auditor’s ability to identify fraud, waste or abuse. The Corporation has shared our comments
 with the Office of Management and Budget. The OIG will continue to monitor this issue.




 18                                                         April 1, 2007 – September 30, 2007
                                             Statistical And
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




April 1, 2007 – September 30, 2007                                  19
                                                                                        Tables


I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                17

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                   and deficiencies found in the administration of Corporation
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         26
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        13

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of     22
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      23
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      24
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        25
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector             7
                   General disagrees




 April 1, 2007 – September 30, 2007                                                           21
Tables


II.            Audit List

                                              April 1, 2007-September 30,2007
      Report                                                           Dollars          Dollars       Funds Put To Better
                                   Report Name
      Number                                                          Questioned     Unsupported             Use
                                                                                   (Dollars in thousands)
      07-14    Agreed-Upon Procedures Review of Grants Awarded           $36             $20                $27
               to Mississippi Commission for Volunteer Service
      07-15    Agreed-Upon Procedures Review of Grants Awarded           $18             $18                 $14
               to Kansas Volunteer Commission

      07-16    Agreed-Upon Procedures Review of the Seven                $0              $0                  $0
               Corners, Inc. Health Benefits Administration Claims
               Processing Contract
      07-17    Agreed-Upon Procedures Review of Senior Corps            $156            $116                 $0
               Grants Awarded to Council on Aging of Volusia
               County, FL

      07-18    Agreed-Upon Procedures Review of Grants Awarded          $3,525         $3,524                $28
               to OneStar National Service Commission (Texas)

      07-19    Follow-Up Review of the Corporation for National and      $0              $0                  $0
               Community Service Purchase and Travel Card
               Programs

      07-20    Agreed-Upon Procedures Review of Grants Awarded           $18             $3                  $5
               to Arkansas Service Commission

      07-21    Audit of Grant Awarded to United States Veterans         $503             $79                $249
               Initiative, Inc.
                                      TOTAL                             $4,257         $3,761               $323




  22                                                                  April 1, 2007 – September 30, 2007
                                                                                       Tables


III.          Reports With Questioned Costs


                                                                     Federal Costs

                    Report Category                    Number Questioned          Unsupported
                                                                      (Dollars in thousands)
       A. Reports for which no management decision       18         $3,729                     $1,810
          had been made by the commencement of the
          reporting period

       B. Reports issued during the reporting period     6          $4,257                     $3,761

   C. Total Reports (A + B)                              24         $7,986                     $5,571

   D. Reports for which a management decision            13         $3,189                     $1,628
      was made during the reporting period

          I. Value of disallowed costs                              $1,644                          $780

          II. Value of costs not disallowed                         $1,545                          $848

       E. Reports for which no management decision       11         $4,797                     $3,943
          had been made or for which the OIG is
          reviewing the management decision at the
          end of the reporting period (C minus D) *
       F. Reports with questioned costs for which no     4           $467                           $182
          management decision or proposed
          management decision was made within six
          months of issuance
   *      Proposed Management Decisions under OIG        1             $73                           $1
          review (see Table VII)




  April 1, 2007 – September 30, 2007                                                           23
Tables


IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                     Report Category                    Number         Dollar Value
                                                                  (Dollars in thousands)
      A. Reports for which no management decision         10                $870
         had been made by the commencement of
         the reporting period

      B. Reports issued during the reporting period       5                 $323

      C. Reports for which a management decision          9                 $797
         was made during the reporting period

          i. Value of recommendations agreed to by                          $319
          management

          ii. Value of recommendations not agreed to                        $478
          by management

      D. Reports for which no management decision         6                 $397
         had been made by the end of the reporting
         period or for which the OIG is reviewing the
         management decision at the end of the
         reporting period *

      E. Reports with recommendations that funds          1                 $73
         be put to better use for which no
         management decision or proposed
         management decision was made within six
         months of issuance
      *   Proposed Management Decisions Under             1                 $73
          OIG review (see Table VII)




 24                                                           April 1, 2007 – September 30, 2007
                                                                                                       Tables


V.            Summary of Audits With Overdue Management Decisions



                                                                               Mgmt.         Status at End of
     Report                                           Federal Dollars         Decision       Reporting Period
     Number                   Title                    Questioned               Due             (09/30/07)
                                                     (Dollars in thousands)

                                                                                       The Corporation accepted the
               Audit of Grants Awarded to Puerto
                                                                                       OIG non-concurrence with the
               Rico State Commission on
      06-05                                                  $155             08/13/06 PMD and agreed to review
               Community Service and Social
                                                                                       additional documentation
               Action Subgrantees
                                                                                       before submitting the Final MD
                                                                                       In October 2006 the
               Audit of Kansas City Foster                                             Corporation stated it would
      06-24                                                   $14             09/20/06
               Grandparent Program                                                     revise its Proposed
                                                                                       Management Decision
                                                                                       A Proposed Management
               Audit of Louisville Metro Community
      06-29                                                   $22             11/27/06 Decision has not been
               Action Partnership
                                                                                       provided to the OIG

               Audit of Kentucky Department for                                        A Proposed Management
      06-31    Mental Health and Mental                      $276             01/18/07 Decision has not been
               Retardation Services FGP                                                provided to the OIG

                              Total                          $467




 April 1, 2007 – September 30, 2007                                                                          25
Tables


VI.        Reports Described In Prior Semiannual Reports
           Without Final Action


      Report                                                        Date         Final
      Number                        Title                          Issued     Action Due

       06-05   Audit of Grants Awarded to the Puerto Rico          02/13/06      02/13/07
               State Commission on Community Service and
               Social Action

               Audit of Senior Corps Grants Awarded to the
       06-24                                                       03/20/06      03/20/07
               City of Kansas City

       06-25   Audit of Grants Awarded to the Illinois             02/22/06      02/22/07
               Commission on Volunteerism and Community
               Service
       06-26   Audit of Grants Awarded to the New Mexico           05/31/06      05/31/07
               Commission for Community Volunteerism


       06-29   Audit of Senior Corps Grants Awarded to the         05/26/06      05/26/07
               Louisville Metro Community Action Partnership


       06-31   Audit of Kentucky Department for Mental Health      07/18/06      07/18/07
               and Mental Retardation Services Foster
               Grandparents Program
       06-39   Study of the Corporation's Internet Use and         08/01/06      08/01/07
               Management Controls


       06-40   Audit of the Corporation's Office of Procurement    08/11/06      08/11/07
               Services


       06-42   Review of the Corporation's Purchase and            08/07/06      08/07/07
               Travel Card Programs


               Agreed-Upon Procedures Review of the
       06-43   Corporation's FEMA Hurricane Relief Mission         09/25/06      09/25/07
               Assignment Process




 26                                                          April 1, 2007 – September 30, 2007
                                                                                                                  Tables


VII           Proposed Management Decisions Under OIG Review



                                                                                                       Status at End of
  Report                                           Federal Dollars         PMD Due                     Reporting Period
  Number                     Title                  Questioned              Date   Date Received          (09/30/07)
                                                  (Dollars in thousands)
                                                                                                   The Corporation is working
              Audit of Grants Awarded to Public                                                    with the grantee to find
      07-08                                                $73              7/19/07    07/27/07
              Allies, Inc.                                                                         additional documentation for
                                                                                                   one finding.
                             Total                         $73




 April 1, 2007 – September 30, 2007                                                                                       27
                                        Fiscal Year 2007
                                Performance Information
                   The section summarizes the Office of Inspector
                   General’s accomplishments and performance measures
                   in support of OIG strategic goals and provides a
                   comparison to previous reporting periods.




April 1, 2007 – September 30, 2007                              29
                                                         Performance Information


                        Quantitative Audit Performance Information
                                                              FISCAL YEAR
                                          2002     2003      2004      2005      2006      2007
Number of reports issued                  28        19        23        21        40        20

Number of reports issued linked to         6         5         6         3        12         7
improving Corporation management (OIG
Goal One)

Number of recommendations linked to       33        56        45        40        139       24
improving Corporation management (OIG
Goal One)

Number of reports issued linked to        28        19        22        18        30        16
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Number of recommendations linked to       181       140       139       142       179       164
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Total number of audit recommendations     181       140       139       169       316       182

Percent of recommendations accepted by    93%      93%       99%       99%       100%       92%
the Corporation


Strategic Goals

The Office of Inspector General operates independently from the Corporation and seeks to achieve a
separate, but related, set of strategic goals. The OIG’s strategic goals are designed to promote
economy, efficiency, and effectiveness, and to prevent and detect fraud, waste and abuse, and
mismanagement in Corporation programs and operations. The general purpose of these goals is to
improve the Corporation’s ability to meet its responsibilities and achieve its mission.

Goal One:     Ensure that OIG activities support the Corporation’s mission by emphasizing
examinations of critical programs and operations.

Goal Two: Communicate effectively with the Corporation Board of Directors, senior management and
staff, grantees and sub-grantees, the public, Congress, and other parties as appropriate.

Goal Three: Strengthen the OIG’s ability and readiness to have maximum impact on the most
significant issues facing the Corporation and its programs.




April 1, 2007 – September 30, 2007                                                         31
Performance Information


                      Investigations Performance Information
           Fiscal Year             FY 2003    FY 2004      FY 2005    FY 2006     FY 2007
  Investigative actions opened       42         42           57         58          62

  Investigative actions resolved     30         38           53          60          55
  and closed

  Average monthly caseload           26         28           37          38          44

  Investigative matters resolved     42         59           45          40          54
  without opening a separate
  investigative action

  Referrals for prosecution           9         8            20          12          16

  Investigative recoveries         $123,988   $36,952     $234,691    $268,839    $838,569

  Cost avoidance                   $158,038   $5,106       $2,363      $74,586    $418,900


  Administrative or management       23         8            24          20          35
  actions taken




 32                                                  April 1, 2007 – September 30, 2007
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                   ♦    All information is confidential.

                   ♦    You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov

                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
